U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 13, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Demario Deshawn Simpson v. United States, No. 20-8415
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 23, 2021.
The government’s response is now due, after one extension, on September 20, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 20, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

20-8415
SIMPSON, DEMARIO DESHAWN
USA

SCOTT GRAHAM
SCOTT GRAHAM PLLC
1911 WEST CENTRE AVENUE
SUITE C
PORTAGE, MI 49024
269-327-0585
SGRAHAM@SCOTTGRAHAMPLLC.COM

